HHS/OIG, Audit -"Review of Subaward Costs Claimed by Yale University on NIH Grant
Number 5 P01 HL56920-05 From February 1, 2001, Through August 31, 2002,"(A-01-05-01501)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Subaward Costs Claimed by Yale
University on NIH Grant Number 5 P01 HL56920-05 From February 1, 2001, Through August 31,
2002," (A-01-05-01501)
February 3, 2006
Complete
Text of Report is available in PDF format (1.19 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether subaward costs claimed by Yale University (the University)
under a University of Massachusetts Medical School (UMMS) grant from the National Institutes
of Health (NIH) were in accordance with the terms of the subaward and applicable Federal
regulations.  The University claimed $193,779 in costs that did not comply with OMB
Circulars A-21 and subaward terms.  In addition, the Principal Investigator failed to
provide the 25 percent level of effort proposed in the Universitys subaward application.  We
recommended that the University (1) verify that cost transfers are adequately explained and
documented, (2) improve procedures for direct charging of costs and comply with procedures
for confirming effort reports, and (3) ensure that levels of efforts are satisfied.  Because
the University received its funds through a subaward from UMMS rather than directly from
NIH, we will recommend under separate cover that UMMS reimburse NIH for remaining unallowable
subaward costs totaling $193,779.  The University acknowledges the $78,965 in disallowances
and disagreed with the remaining $114,814.